                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12100073                                                                          Page 1 of 1



                   An NSF program officer1 notified us that a panelist2 had been contacted by a PI3 before the
         panel met to encourage to him to read the proposal carefully. The panelist was concerned that his
         identity as a panelist and a designated reviewer of his proposal had been disclosed improperly to the
         PI, who he had spoken to only once before when the PI was trying to initiate a collaboration. The
         program officer also told us that another panelist4 reported after the panel deliberations that a second
         PI5 had approached her before the panel intimating knowledge of her assignment to review the
         proposal on the panel. All of the panelists knew the composition of the panel 6 and the proposal
         assignments about one month prior to the panel's meeting.

                 We reviewed the possible academic, professional, and other connections between the two Pis
         and the membership of the entire panel to assess likely routes of disclosure of the panel assignments.
         We identified no substantive linkages to warrant further investigation when weighed against the
         privacy interests involved.

                   Accordingly, this case is closed.




         2


         4
         5
         6




NSF OIG Form 2 (11102)
